MATTHEW RODRIQUEZ
Acting Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6120
Facsimile: (916) 731-2122
E-Mail: Carlos.Dominguez@doj.ca.gov

April 23, 2021
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
RE:

Paul Wesley Baker v. California
No. 20-7683
Request for Extension of Time to File Brief in Opposition to Petition for Writ of
Certiorari

Dear Mr. Harris:
I represent the respondent State of California in the above-entitled case. The petition for
writ of certiorari was filed on March 31, 2021. The brief in opposition to the petition is currently
due on May 7, 2021. Pursuant to Rule 30.4, I respectfully request that the time for filing that
brief be extended by thirty-one days to June 7, 2021.
An extension of time would better enable the preparation of a response that respondent
believes would be most helpful to the Court.
Accordingly, I request that the due date for the brief in opposition to the petition for writ
of certiorari be extended to June 7, 2021.
Sincerely,

/s/ E. Carlos Dominguez
E. Carlos Dominguez
Deputy Attorney General
For

cc: John F. Schuck, Counsel for Petitioner
64163091

MATTHEW RODRIQUEZ
Acting Attorney General

DECLARATION OF SERVICE BY E-MAIL
Case Name:
No.:

Paul Wesley Baker v. The State of California
20-7683

I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On April 23, 2021, I served the attached REQUEST FOR EXTENSION OF TIME by
transmitting a true copy via electronic mail addressed as follows:

John F. Schuck
Attorney at Law
Law Offices of John F. Schuck
E-mail Address:
schuckappeal@hotmail.com

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on April 23,
2021, at Los Angeles, California.
Lupe Zavala
Declarant
LA2021601410

64163127.docx

/s/ Lupe Zavala
Signature

